                AUDIT OF

   THE OFFICE OF COMMUNITY ORIENTED

           POLICING SERVICES

TECHNOLOGY PROGRAM GRANT AWARDED TO

    THE COLUMBUS POLICE DEPARTMENT

            COLUMBUS, OHIO



       U.S. Department of Justice

     Office of the Inspector General

              Audit Division



      Audit Report GR-50-13-006

             January 2013

                        AUDIT OF

           THE OFFICE OF COMMUNITY ORIENTED

                   POLICING SERVICES

        TECHNOLOGY PROGRAM GRANT AWARDED TO

            THE COLUMBUS POLICE DEPARTMENT

                    COLUMBUS, OHIO


                        EXECUTIVE SUMMARY


       The Office of the Inspector General, Audit Division, has completed an
audit of the Office of Community Oriented Policing Services (COPS)
Technology Program grant number 2008-CK-WX-0200 in the amount of
$1,215,890 awarded to the Columbus, Ohio, Police Department
(Columbus PD). The COPS Technology Program provides direct funding for
the continued development of technologies and automated systems to assist
in investigating, responding to, and preventing crime. Grants are intended
to enhance a variety of technical equipment and/or programs to encourage
the continuation and advancement of community policing efforts within a
jurisdiction.

      Specifically, the purpose of grant number 2008-CK-WX-0200 was to
assist the Columbus PD to: (1) purchase and install a video recording
system for police vehicles that wirelessly transfers video to servers at
17 W-Fi hot spots, 110 digital video cameras in marked cruisers, and
support software; and to (2) provide training for officers on the system.
Additionally, the Columbus PD planned for the video recordings to assist in
the prosecution of criminal and traffic-related offenses.

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal control environment, (2) drawdowns,
(3) grant expenditures, (4) budget management and control, (5) federal
financial and progress reports, (6) grant requirements, (7) program
performance, and (8) monitoring contractors. We determined that indirect
costs, program income, and sub-grantees were not applicable to this grant.

     Our audit revealed that the Columbus PD generally complied with
COPS grant guidelines and requirements. However, we identified
weaknesses related to internal control and property management, as
summarized below.
     •	 Grantee officials responsible for administering the grant did not
        receive adequate grant management training prior to assuming
        their grant-related duties.

     •	 The grantee did not have a formal policy to ensure that grant-
        related invoices are reviewed and approved by the grant manager.

     •	 The grantee did not consistently document the receipt of grant-
        related goods and services.

     •	 The grantee had difficulty locating some equipment installed in
        police vehicles. Additionally, property inventories were not
        conducted as required. Furthermore, in one instance, the serial
        number on the property inventory record was incorrect. Finally, in
        two instances, property purchased with grant funds was not
        properly labeled.

     •	 The grantee did not have a formal process to ensure property
        records are maintained with all required elements to properly
        account for grant-funded equipment.

     •	 The grantee did not have a formal process to monitor contractors.

      Our report contains six recommendations to address the weaknesses
we identified. Our findings are discussed in the Findings and
Recommendations section of the report, and our audit objectives, scope, and
methodology are discussed in Appendix I.




                                    - ii ­
                            TABLE OF CONTENTS


INTRODUCTION........................................................................ 1

     Background.......................................................................... 2

     Our Audit Approach............................................................... 2


FINDINGS AND RECOMMENDATIONS ....................................... 4

     Internal Control Environment ................................................. 4

     Drawdowns .......................................................................... 5

     Grant Expenditures ............................................................... 6

     Budget Management and Control ............................................ 8

     Property Management ........................................................... 9

     Reports ..............................................................................11

     Program Performance and Accomplishments ...........................12

     Monitoring Contractors .........................................................14

     Views of Responsible Officials ................................................15

     Recommendations ...............................................................15


APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ....... 16


APPENDIX II – AUDITEE RESPONSE ....................................... 17


APPENDIX III – OFFICE OF COMMUNITY ORIENTED

                 POLICING SERVICES RESPONSE................ 23


APPENDIX IV – OFFICE OF THE INSPECTOR GENERAL

                ANALYSIS AND ACTIONS NECESSARY TO 

                CLOSE THE REPORT ................................... 27

                             INTRODUCTION

       The Office of the Inspector General, Audit Division, has completed an
audit of the Office of Community Oriented Policing Services (COPS)
Technology Program grant number 2008-CK-WX-0200 in the amount of
$1,215,890 awarded to the Columbus, Ohio, Police Department
(Columbus PD). The COPS Technology Program provides direct funding for
the continued development of technologies and automated systems to assist
in investigating, responding to, and preventing crime. Grants are intended
to enhance a variety of technical equipment and/or programs to encourage
the continuation and advancement of community policing efforts within a
jurisdiction.

       Specifically, grant number 2008-CK-WX-0200 was awarded to the
Columbus PD to enable the police department to purchase an integrated
mobile computing and digital video system. The system was designed to
allow digital recordings from cruisers to be wirelessly uploaded and
downloaded to servers to be made quickly available for viewing on desktop
computers. The digital video system was to include servers to store the
digital data in a long-term storage environment, and software to maintain,
manage, and view the digital data. The previous system required police
officers to manually remove footage from camera hard drives and, according
to the Columbus PD, processing the hard drives was time-consuming and
the video footage was not readily available. With the new system, the ease
of accessibility of footage was projected to assist in the processing of public
records requests and to aid in the prosecution of criminal and traffic-related
offenses. This grant enabled the Columbus PD to purchase and install
server-based wireless automatic video transfer for 17 Wi-Fi hot spots,
110 digital video cameras in marked cruisers, and support software; as well
as to train officers to use the system. The Columbus PD planned to allow
citizens, community groups, and neighborhood block watches the
opportunity to see video footage of actual issues in their communities.

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal control environment, (2) drawdowns,
(3) grant expenditures, (4) budget management and control, (5) federal
financial and progress reports, (6) grant requirements, (7) program
performance, and (8) monitoring contractors. We determined that indirect
costs, program income, and sub-grantees were not applicable to this grant.
As shown in the following table, the Columbus PD was awarded a total of
$1,215,890 to implement the grant program.

                 TABLE 1. COLUMBUS POLICE DEPARTMENT
                        GRANT 2008-CK-WX-0200 1
                             AWARD      AWARD
          GRANT AWARD                             AWARD AMOUNT
                           START DATE  END DATE

      2008-CK-WX-0200           12/26/07        12/25/12        $1,215,890
                                                    Total:       $1,215,890
   Source: The COPS Office

Background

       The COPS Office was established as a result of the Violent Crime
Control and Law Enforcement Act of 1994 to assist law enforcement
agencies in enhancing public safety through the implementation of
community policing strategies in jurisdictions of all sizes across the country.
Community policing represents a shift from more traditional law enforcement
in that it focuses on prevention of crime and the fear of crime on a local
basis. Community policing puts law enforcement professionals on the
streets and assigns them a beat so they can build mutually beneficial
relationships with the people they serve.

      The city of Columbus is the capital of and the largest city in the state
of Ohio, with a population of 787,033 as reported in the 2010 U.S. Census.
The broader metropolitan area of Columbus encompasses several counties
and is the third largest in Ohio behind the metropolitan areas of Cleveland
and Cincinnati. In addition, Columbus’ metropolitan area has a population of
1,836,536; this makes it the fourth most populous state capital in the
United States.

Our Audit Approach

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the applicable COPS Technology Program
Grant Owner’s Manual and the grant award documents.

      In conducting our audit, we performed sample testing in four areas:
(1) drawdowns, (2) transactions, (3) budget management and control, and

      1
        The award end date was changed from 12/25/2010 to 12/25/2012 in a no-cost
budget modification granted by the COPS Office.


                                        -2­
(4) property management. In addition, we reviewed the timeliness and
accuracy of Federal Financial Reports (FFR) and progress reports, evaluated
performance to grant objectives, and reviewed the internal controls of the
financial management system. Our audit objectives, scope, and
methodology are discussed in Appendix I.




                                   -3­
               FINDINGS AND RECOMMENDATIONS

      The Columbus PD generally complied with the COPS Office’s
      grant guidelines with respect to grant expenditures, budget
      management and control, and reporting. However, we identified
      weaknesses related to grant administration, property
      management, and monitoring contractors.

Internal Control Environment

       We reviewed the Columbus PD’s financial management policies and
procedures to assess its risk of non-compliance with laws, regulations,
guidelines, and terms and conditions of the grant. We also interviewed
individuals who were involved with the grant, such as grant project
management and finance personnel, and we evaluated grant management
practices to further assess risk.

Single Audit

      Office of Management and Budget (OMB) Circular A-133 requires
grantees to perform a Single Audit if federal expenditures exceed $500,000
in a year. We determined that the Columbus PD was required to have a
Single Audit performed in 2010, and we reviewed this report.

      The Single Audit Report was prepared under the provisions of OMB
Circular A-133. We reviewed the independent auditor’s assessments, which
disclosed a significant internal control deficiency in 2010. In the category of
federal award findings, the Single Audit indicated that the grantee was not
monitoring a sub-recipient to ensure the sub-recipient was compliant, and
the award information was not included within the contract with the sub-
recipient. However, as there were no sub-recipients associated with this
grant, we did not note this as an area of concern.

Financial Management System

      According to the COPS 2008 Technology Program Grant Owner’s
Manual, the Columbus PD is required to keep accurate financial records by
maintaining accounting systems and financial records to accurately account
for funds awarded and disbursed. There was sufficient separation of duties,
and the financial management operating procedures were documented.




                                     -4­
Grant Administration

       From the start of the grant, various Columbus PD officials managed
grant-related planning, administration, and procurement. According to
Columbus PD officials, three different Columbus PD officials have held the
position of grant project manager since the start of the grant. The first
project manager prepared the proposed budget and application, while the
second project manager was involved in the initial order of equipment for
the project. Furthermore, at the time of this audit, a third official was in the
grant program manager position.

        Columbus PD officials gave conflicting accounts of which office was
responsible for preparing and submitting program progress reports.
Additionally, an individual responsible for the accountability of property
purchased with grant funds was unsure whether certain equipment was
purchased with grant funds. Furthermore, the grantee planned to assess
performance for one of the grant goals by measuring the availability of
digital video to assist in the prosecution of criminal and traffic-related
offenses. However, we were told that the Columbus PD had not maintained
information regarding project impact.

       The grant program manager at the time of our audit stressed to
auditors that he had little involvement in the grant project because most of
the work had been accomplished prior to his appointment to the
position. He also explained that he was not provided any grant management
training when he started in his position. We believe that the Columbus PD
should ensure that its grant project managers receive adequate training.

Drawdowns

      Grant officials stated that drawdowns were based on actual
expenditures in the accounting records. As shown in Table 2, we reviewed
the accounting records and compared expenditures to the actual drawdowns
and found that the transactions in the accounting records were in agreement
with the amount of drawdowns.




                                      -5­
       TABLE 2. DRAWDOWNS VERSUS ACCOUNTING RECORDS 2
                                             DIFFERENCE
                                              BETWEEN
                                GRANT        DRAWDOWNS
  DATE OF     AMOUNT        EXPENDITURES          AND       CUMULATIVE      CUMULATIVE
DRAWDOWN      DRAWN        PER ACCOUNTING    EXPENDITURES   DRAWDOWNS      EXPENDITURES
 PER THE     DOWN PER       RECORDS FOR           IN         PER THE            PER
  COPS       THE COPS        DRAWDOWN        ACCOUNTING        COPS        ACCOUNTING
 OFFICE       OFFICE           PERIOD         RECORDS         OFFICE        RECORDS

09/10/2010    $364,336        $364,336            $0          $364,336       $364,336

10/22/2010     $24,669         $24,669            $0          $389,005       $389,005

11/22/2010     $20,000         $20,000            $0          $409,005       $409,005

12/20/2010    $294,896        $294,896            $0          $703,901       $703,901

01/21/2011     69,705          $69,705            $0          $773,606       $773,606

06/17/2011      $447            $447              $0          $774,053       $774,053

06/17/2011      $236            $236              $0          $774,289       $774,289

06/17/2011     $7,422          $7,422             $0          $781,711       $781,711

06/17/2011     $4,623          $4,623             $0          $786,334       $786,334

06/17/2011     $6,834          $6,834             $0          $793,168       $793,168

07/15/2011     $9,287          $9,287             $0          $802,455       $802,455

08/12/2011     $7,155          $7,155             $0          $809,610       $809,610

09/16/2011     $10,795         $10,795            $0          $820,405       $820,405

10/21/2011      $498            $498              $0          $820,902       $820,902

02/23/2012    $296,764        $296,764            $0         $1,117,666     $1,117,666

04/19/2012     $7,947          $7,947            $0         $1,125,612      $1,125,612
Source: Columbus PD accounting records and COPS Office drawdown records.

Grant Expenditures

       We reviewed the expenditures for the grant and found there were a
total of 61 transactions totaling $1,125,612 between August 2010 and

       2
        The actual drawdown and expenditure amounts may be greater or less than the
amounts shown due to rounding.



                                         -6­
March 2012. We selected a judgmental sample of 30 transactions charged
to the grant for a total dollar amount of $891,185. Overall, we reviewed
79 percent of the grant expenditures and found that they were generally
supported and properly charged to the grant.

Procurement and Receiving

      Though the expenditures were generally supported, we found there
was not always documentation that an authorized individual approved the
payment of invoices. The lack of documentation of the project manager's
approval before expenses were charged to COPS grants was also noted in an
independent auditor's comments related to the single audit for the year
ended December 31, 2010.3 In response to the comments, in an internal
Columbus PD e-mail, a previous grant program manager acknowledged that
the Columbus PD did not have a procedure for authorizing the payment of
grant-related expenditures. The development and implementation of a
process was deferred to the Fiscal Operations Unit.

      A Columbus PD fiscal manager stated that a policy implemented after
the independent auditor’s comments directs personnel from the unit that
receives property to supply finance personnel with written documentation
and/or a packing slip for equipment, supplies, or services. He explained that
written notice of this policy was given to Columbus PD employees
responsible for paying invoices. The fiscal manager added that the
Columbus PD planned to, but had not yet, updated the Fiscal Operations Unit
Standard Operating Procedure (SOP) to formalize this policy. The grant
project manager stated that he typically confirms receipt of orders and
communicates with finance personnel to provide approval to pay invoices.

      Of the 30 transactions we reviewed, only 15 included a written
approval to pay invoices. Of the 15 transactions that did not include the
approval to pay, 2 of the transactions were made after the independent
auditor’s comments. Due to the high turnover we observed in the project
manager position, we believe that the Columbus PD should formalize its
invoice review and approval policy.

      Also, the grantee’s verification of receipt of goods and services was not
documented. Of the supporting documentation we reviewed, we found only
one case where the grantee provided documentation of verification of receipt
of equipment, supplies, and services. Therefore, the documented support

       3
          This was not a finding in the single audit for the year ended December 31, 2010.
However, it was identified in a separate letter to management as a matter that did not require
inclusion in the single audit but was a matter for which the independent auditor believed
improvements in compliance, internal controls, or operational efficiencies might be achieved.


                                            -7­
for transactions was not complete, and in many cases it could not be
determined whether an individual with appropriate knowledge verified the
receipt of equipment, supplies, or services. We believe that the
Columbus PD should develop and implement a formal policy to document
and maintain record of the receipt of equipment, supplies, and services.

Budget Management and Control

      According to the COPS 2008 Technology Program Grant Owner’s
Manual, movement of dollars between approved budget categories or other
budget modifications is allowed up to 10 percent of the total award amount
as last approved by the COPS Office, provided there is no change in project
scope.

      Initially, the approved budget categories for the project were
equipment, consultants and contractors, and other. On June 12, 2012, the
COPS Office approved a grantee request for a budget modification. The
approved budget modification added training, travel, and supplies as budget
categories to the grant, but the scope of the project and the award amount
remained the same. Additionally, the approved budget modification
extended the period of the grant from an end date of June 25, 2012, to a
revised end date of December 25, 2012.

      We assessed the grantee’s expenditures in the budget categories, and
we determined that the Columbus PD did not exceed the 10-percent
variance that is allowed. As of August 2012, the grantee still planned to
expend the remaining grant funds to purchase additional items. The
following table identifies each of the approved budget categories and the
Columbus PD’s expenditures by category.




                                    -8­
                                TABLE 3.

                     BUDGET MANAGEMENT AND CONTROL


                                                                              4
                     COST CATEGORY            GRANT BUDGET     ACTUAL COSTS

             Training/Travel                          $4,429        $4,433

             Equipment                             $980,460       $928,013

             Supplies                               $35,087        $22,323

             Consultants/Contractors                $57,800        $57,800

             Other                                 $138,114       $113,043

             TOTAL                              $1,215,890        $1,125,612
            Source: Approved budget modification and Columbus PD accounting records


Property Management

       The COPS 2008 Technology Program Grant Owner’s Manual requires
grantees to implement controls to ensure property and equipment purchased
with federal funds are properly safeguarded against loss, damage, or theft of
the property. As previously reported, this grant was awarded to the
Columbus PD for the purchase of a mobile computing system for wireless
upload and download of digital video recordings. The system equipment
included video cameras and transmitters that work with digital video
recorders and sync to servers. The grant also funded software, maintenance
agreements, and training. As 60 percent of grant funds were initially
allocated for the purchase of equipment, we selected three locations to visit
to view the property on-hand and to compare the property record to the
property serial numbers. We observed that cameras, transmitters, and
digital video recorders were in the Columbus PD vehicles, as well as that
servers were installed at the sites. We also viewed video footage recorded
with grant-purchased equipment. During observation of the property and
review of the property records, we found discrepancies in four areas.

Property Accountability

       When we asked to view specific grant-funded equipment that had been
installed in cruisers, we found that the Columbus PD personnel could not
easily locate the equipment because of discrepancies in the Columbus PD’s
property records. Specifically, we used a Columbus PD-provided list of

     4
         The actual costs reflected for the budget categories are as of May 2012.


                                            -9­
vehicles and associated equipment to select a sample of property to verify.
We provided the Columbus PD with a list of 10 vehicles with grant-funded
equipment to compare the equipment serial number with the Columbus PD
property records. 5 The Columbus PD found that the original Columbus PD
vehicle list was not correct for two of the seven vehicles.

      Although we noted that cameras, transmitters, and digital video
recorders were installed in the Columbus PD vehicles, we found that
Columbus PD personnel could not easily locate grant-purchased equipment
because they could not determine in which vehicle specific items were
located. Grantee officials attributed the inaccuracy of the property records
to a miscommunication with the city of Columbus’ fleet operations office.
According to the Columbus PD personnel, the city of Columbus’ fleet
operations office changes vehicle status and/or identifiers, but does not
notify the police department of the changes. To maintain better
accountability of grant-funded equipment installed in Columbus PD cruisers,
we believe it would be beneficial for the Columbus PD to work with the city
of Columbus’ fleet operations office to develop a system for notification of
status and identifier changes for the police vehicles.

Inventory Policy

       We also found that Columbus PD personnel did not complete annual
property inventories in accordance with the Columbus Police Division
Directive, Division Property Acquisition and Inventory policy. We
recommend that the Columbus PD personnel conduct property inventories in
accordance with its policy to ensure that it maintains an accurate accounting
of its assets.

Property Records

      The serial number for one item was listed incorrectly on the property
record. The Columbus PD personnel immediately updated the property
record to correct the discrepancy.

      In addition, the independent auditor's comments related to the single
audit for the year ended December 31, 2010, noted that equipment records
did not contain the acquisition information and cost information as required.
According to a Columbus PD official, the Columbus PD updated its equipment
records to include the required information. A Columbus PD official
explained that the program manager ensures that the inventory records for

       5
         Three of the vehicles on the list were not viewed because they were
unavailable. We did not replace these items in our sample.


                                          - 10 ­
the grant continue to capture acquisition and cost information. However, we
found that these corrective actions did not result in applicable changes to
formal Columbus PD policies. Due to the frequency of employee turnover in
the police department and because training has not been provided for grant
management, we recommend that the procedures for property record
completeness be added to the applicable policies.

Labels

      According to the Columbus Police Division Directive for Division
Property Acquisition and Inventory, generally, any property item valued at
over $100 and having a useful life of 5 years or more is considered an asset
and should have an asset number attached. During our fieldwork, we
inspected 24 items of accountable property and noted 2 items that did not
have proper labels. Specifically, a wireless controller and a universal power
source were not labeled properly. A Columbus PD official explained that the
department did not receive the numbers for the property labels at the
beginning of the project and that his office worked to get the equipment set­
up before the labels were prepared. Therefore, these items from the
beginning of the project did not have labels affixed to them. We recommend
that property have the appropriate labels attached.

Reports

      According to the COPS 2008 Technology Program Grant Owner’s
Manual, award recipients are required to submit both financial and program
progress reports. These reports describe the status of the funds and the
project, compare actual accomplishments to the objectives, and report other
pertinent information.

Federal Financial Reports

       Financial activity reports for reporting periods prior to October 1,
2009, were due to the COPS Office no later than 45 days following each
calendar quarter. For periods following October 1, 2009, the COPS Office
requires grantees to submit Federal Financial Reports (FFR) no later than
30 days after the end of each quarter. We reviewed the 17 FFRs submitted
and found that the first 4 FFRs were submitted on the same date, making
the first 3 reports 257, 166, and 75 days late, respectively. However,
according to the grantee and the grant notification memo, the COPS Office
did not advise the Columbus PD until September 2008 that the grant had
been awarded. Given this circumstance, we did not consider these late FFRs
to be exceptions. As shown in Table 4, we reviewed the accounting records
and compared cumulative expenditures to expenditures reported in the FFRs


                                   - 11 ­
and found that the expenditures in the accounting records were in
agreement with the amounts reported in the reports submitted.

          TABLE 4. FEDERAL FINANCIAL REPORT ACCURACY
                                                 CUMULATIVE      DIFFERENCE
                            CUMULATIVE      EXPENDITURES PER   BETWEEN FFRS &
   REPORT PERIOD FROM ­    EXPENDITURES       ACCOUNTING         ACCOUNTING
        TO DATES             PER FFR              RECORDS         RECORDS
   12/26/2007-12/31/2007        $0                  $0               $0
   01/01/2008-03/31/2008        $0                  $0               $0
   04/01/2008-06/30/2008        $0                  $0               $0
   07/01/2008-09/30/2008        $0                  $0               $0
   10/01/2008-12/31/2008        $0                  $0               $0
   01/01/2009-03/31/2009        $0                  $0               $0
   04/01/2009-06/30/2009        $0                  $0               $0
   07/01/2009-09/30/2009        $0                  $0               $0
   10/01/2009-12/31/2009        $0                  $0               $0
   01/01/2010-03/31/2010        $0                  $0               $0
   04/01/2010-06/30/2010        $0                  $0               $0
   07/01/2010-09/30/2010     $389,005             $389,005           $0
   10/01/2010-12/31/2010     $773,606             $773,606           $0
   01/01/2011-03/31/2011     $788,308             $788,308           $0
   04/01/2011-06/30/2011     $802,455             $802,455           $0
   07/01/2011-09/30/2011     $820,902             $820,902           $0
   10/01/2011-12/31/2011     $820,902             $820,902           $0
   Source: Columbus PD accounting records and COPS Office drawdown records

Program Progress Reports

       According to the COPS Office, progress reports are due annually to the
COPS Office by January 30. The reports we reviewed were completed in a
survey format rating a series of program performance statements on a scale
of 1 to 10. We reviewed all four required progress reports and found that all
the reports were submitted generally on time and accurately reflected grant-
related activity.

Program Performance and Accomplishments

      According to the award application, the purpose of the grant was to
achieve the four goals outlined below:




                                        - 12 ­
      1. Install server-based wireless automatic video transfer with 17 Wi-Fi
         hot spots located at each police substation and Central Police
         headquarters,

      2. Install 110 digital video cameras in marked cruisers,

      3. Ensure front-end software is user-friendly, and

      4. Assist in the prosecution of criminal and traffic-related offenses by
         making digital video available to prosecutors in the courtroom via a
         desktop personal computer.

       The grant application included strategies and activities that would be
enabled by the use of the cameras purchased through the grant. With this
grant project, the Columbus PD planned to give officers an opportunity to
use the equipment as a learning tool by observing the footage and critiquing
situations encountered by the officers. The strategies and activities in the
application also included interaction with citizens and community groups.
The Columbus PD planned to allow citizens and community leaders access to
review video footage as an opportunity to see actual issues in their
community. This application section also mentions the grant project
enhancing working relationships with other governmental and community
groups, such as the prosecutor’s office, witness assistance programs,
American Bar Association, and many city of Columbus departments. In
regard to the goals, we found that the Columbus PD did not maintain data
on the accessibility, availability, or the increased use of the video footage;
therefore, we could not review the information. However, the grant project
manager informed us that the system is frequently used at prosecution and
on a daily basis for training and administrative investigations and reviews.

Officer and Citizen Assessment of New System

      According to the grant program manager, the grantee met with
members of the community to provide a presentation and demonstration of
the system and had three additional presentations scheduled. The grant
program manager also conducted surveys of members of the community,
police supervisors, and the officers who use the equipment daily in an
attempt to evaluate the effectiveness of the new system and to obtain
feedback from the public on the system. Overall, the Columbus PD surveyed
approximately 450 of its officers, 141 of its supervisors, and 120 citizens.

      Of the officers surveyed, a majority were neutral or generally agreed
that cameras in police cruisers are a positive asset and that cameras in the
cruisers will aid in enforcing laws and/or helping to solve crime. However, a


                                    - 13 ­
majority of officers were neutral or did not believe that the speed of the
system’s upload of videos to the server is effective and did not believe that
the system helps officers perform their jobs more efficiently.

      Of the Columbus PD supervisors surveyed, a majority were neutral or
generally agreed that cameras in police cruisers are a positive asset and that
cameras in the cruisers will aid in enforcing law and/or helping to solve
crime. Additionally, a majority of supervisors were neutral or generally
agreed that the system was a useful tool in their daily supervisory activities.
However, a majority of supervisors were neutral or did not believe that the
system was easy to use on desktop workstations and did not believe that the
speed of the system’s upload of videos to the server is effective.

      Of the Columbus citizens surveyed, a majority of citizens were neutral
or generally agreed that they believed the cameras in police cruisers:
(1) were a positive asset, (2) would deter criminals from committing crimes,
(3) would aid in enforcing the law and/or helping to solve crime, and
(4) would help officers perform their jobs more efficiently.

       When asked about the survey results, the Columbus PD grant project
manager explained that problems with the speed of video upload were
recognized early in the project and that the Columbus PD is currently
working to update the data lines with more bandwidth to improve upload
speeds. The grant project manager also added that, if asked, he believes
officers would indicate that they preferred the current system over the
analog system used prior to this grant project.

      The grant project manager also explained that one of the major
complaints with the system was the battery life of microphone transmitters.
To rectify the issue, the Columbus PD used grant funds to purchase
additional transmitters and transmitter pouches so that each officer could be
issued a backup set in addition to the two transmitters that are now
assigned to each police cruiser.

Monitoring Contractors

      The Columbus PD utilized a contractor to conduct a site survey, project
planning, and installation of equipment purchased with grant funds. We
found that the Columbus PD does not have a formal process for monitoring
the performance of contractors. Instead, the contractors’ activities were
monitored informally. For example, Columbus PD personnel told us that
employees escorted the contractors and the Columbus PD personnel
received training by observing the contractor install equipment. We believe



                                    - 14 ­
that a formal process to monitor contractors would be of overall benefit to
the grantee’s internal controls.

Views of Responsible Officials

       We discussed the results of our review with grantee officials
throughout the audit and at a formal exit conference, and we have included
their comments as appropriate.

Recommendations

      We recommend that the COPS Office:

      1. Ensure that Columbus PD grantee officials receive grant

         management training.


      2. Ensure that the Columbus PD develops and implements a formal
         policy to ensure that grant-related invoices are reviewed and
         approved by the grant project manager prior to payment.

      3. Ensure that the Columbus PD develops and implements a formal
         policy requiring confirmation and documentation of the receipt of
         grant-funded equipment, supplies, and services.

      4. Ensure that the Columbus PD develops a process to ensure property
         inventories are conducted in accordance with Columbus PD policy
         and ensure assets have asset numbers attached.

      5. Ensure that the Columbus PD formalizes its policy to ensure
         property records are maintained with all required elements to
         properly account for grant-funded equipment.

      6. Ensure that the Columbus PD develops a formal process to monitor
         contractors.




                                    - 15 ­
  APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal control environment, (2) drawdowns,
(3) grant expenditures, (4) budget management and control, (5) federal
financial and progress reports, (6) grant requirements, (7) program
performance, and (8) monitoring contractors. We determined that indirect
costs, program income, and sub-grantees were not applicable to this grant.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives. This was an audit of the Columbus PD COPS Technology
Program grant number 2008-CK-WX-0200. Our audit concentrated on,
but was not limited to, the period of December 2007 through
May 2012. The Columbus PD had a total of $1,125,612 in drawdowns as
of May 2012.

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the COPS Technology Program Grant
Owner’s Manual and the award documents.

      In conducting our audit, we performed testing in four areas:
(1) drawdowns, (2) transactions, (3) budget management and control, and
(4) property management. In this effort, we employed a judgmental
sampling design to obtain broad exposure to numerous facets of the grant
reviewed, such as dollar amounts and expenditure category. We selected
30 grant transactions totaling $891,185 occurring between August 2010 and
March 2012. This non-statistical sample design does not allow projection of
the test results to the universes from which the samples were selected. In
addition, we reviewed the timeliness and accuracy of Federal Financial
Reports and Progress Reports for reporting periods between the inception of
the grant and December 2011, and we evaluated performance as it related
to grant objectives. However, we did not test the reliability of the financial
management system as a whole.



                                    - 16 ­
                                APPENDIX II – AUDITEE RESPONSE 




  KIM JACOBS                                                                                ~     THE CITY OF              •

                                                                                            (? " ~CH~~~!1M~ S
                                                                                                          ~
  CHIEF OF POLICE


                                                                                                  DIVI SION OF POLICE

         January 3, 2013


        Ms. Carol 5. Taraszka
        Regional Audit Manager
        U.S. Department of Justice
        Office of the Inspector General
        Chicago Regional Audit Office
        500 West Madison Street, Suite 1121
        Chicago, Illinois 60661·2590


        Ms. Taraszka:

        My staff and I have reviewed the copy of the draft audit report on the Audit of the Office of
        Community Oriented Policing Services (COPS) Technology Program Grant awarded to my agency.
        This grant, grant number 2008-CK-WX-0200 in the amount of $1,21$,890, provided the City of
        Columbus, Division of Police, direct funding to purchase and deploy, among other things, 110
        digital video cameras in marked cruisers and the equi pment necessary to wirclcssly transfer video
        to servers for storage and later retrieval. As stated In the draft aud it report, my agency has
        complied with the grant guidelines and requirements. I offer the following comments on the
        speCific recommendations offered by your team to the COPS Office:

         1. Recommendation: Ensure that Columbus PD grantee officials receive grant
            management training. The Columbus Division of Police agrees with this recommendation.
            As such, and even prior to the results ofyuur audit being communicated to my staff, several
            actions were taken to address this weakness.

                First, thc Grants Unit, responsible for the financial tracking and reporting of division grants,
                prepared and conducted a series of meetings in June 20 12 with all Division Grant Project
                Directors to review basic grant administration guidelines. Such information that was covered
                included budget modifications, inventory tracking, grant reporting, grant dose out
                procedures, propel" documentation and file maintenance, etc. At these meetings, the Grants
                Unit presented two new processes and procedures that have also subsequently been added to
                the Fiscal Administration Section's Standard Operating Procedure, or SOP, (currently in draft
                form as of the writing of this letter). Upon the acceptance of a ncw grant, or the transition of
                the responsibilities of an existing/active grant to a new Project Director, the Grants Unit is to
                be notified by the invulved party(ies). A meeting will be scheduled for the new, incoming
                Project Director as well as the Outgoing Project Director, as applicable, by the Grants Unit staff.
                At this meeting, information will be shared between the outgoing/incoming or new Project
                Director and the Gr,mts Unit staff, files handed over, responsibilities discussed, documentation
                reviewed, etc. A new, formal Project Director HistOlY Sheet documents either the trJn~ition of
                responsibility or the initiation of responsibility. The second new procedure presented at the
                                                                                                            T, (614) 645·4545
12(l Ma,.""..   BouI .....~,"                                                                               F: (610) 645 · 4551
p.o. Box IS009                                                                                            TOO (614) 645·4677
Columbu .. Otvo 4n15·OOO9                                                                             www.coloJml.>Jwo~ot.0f9




                                                          - 17 ­
   June 2012 Grant Director meetings was that of an annual internal grant review process. This,
   too, has been added to the Fiscal Administration's SOP. Though not directly related to this
   recommendation, I Feel that this aids in the ongoing trai ning needed for the Division's Grant
   Project Directors, Specifically, the two members of the Grants Unit staff will schedule and
   conduct annual, in person meetings with each of the Grant Project Directors to review tiles,
   documentation, and reports, inspect and spot check inventories as applicable, etc. The
   intention ofthese annual reviews is to increase and promote information sharing between the
   Grants Unit and individual Grant Project Directors, prOvide feedback to the Grant Project
   Directors for continuous improvement, and identify and rectify any issues promptly,

   In addition, the Grants Unit has been directed to create a formal "grants toolkit" by the
   summer of 2013 as part of the Division's Strategic Goals. Such toolkit will he given to Grant
   Project Directors at the aforementioned director transition or new director meeting, and will
   be comprised of some of the following resources/information: the Project Director History
   Sheet which will be tilled out an d signed, formally establishing responsibility for the grant,
   sample inventory templates (though the particular grant may specify a format or information
   which will be followed in lieu of this template), a list of general grant guidelines and internal
   processes and procedures, and other pertinent forms, resources, and information. Handing
   something tangible to a new Project Director and reviewing the materials For applicability in
   person will ensure that all Division officia ls with responsibility for the grant will be well
   informed, instructed, and supported by the Grants Unit.

   Pinally, the two members or the Grants Unit staff, as well as their supervisor, the Fiscal
   Manager of the Fiscal Administration Section, successfully completed the U.S. Department of
   Justice's online DOJ Grants Financial Management training course, earning an estimated eight
   credit hours per person, That training was completed on June 20,h by the Fiscal Manager, and
   on June 29th and July 13lh by the two members of the Grants Unit. The knowledge gained
   from such trai ning has already proven useful in providing gu id ance lo the Grant Project
   Directors of the Division.

   [n the past, training and guidance to new Grant Project Directors was informal and largely
   unstructured. With official processes and procedures in place for instruction and continued
   monitoring, Grant Project Directors will have the support needed to properly Fultlll their
   responsibilities going forward, As we have transitioned a second member to the Grants Unit
   over the past year or so, the resources required to provide such additional assistance to
   Project Directors, while still accomplishing the accu rate tracking and reporting of financial
   information to grantors noted in your report, are now in place.

2, Recommendation: Ensure that Columbus PD develops and imple me nts a formal policy
   to ensure that grant-related invoices al'e reviewed and approved by the grant project
   ma nager prior to payment. The Columbus Division of Police agrees with this
   recommendation, with an addition or slight modification. The Fiscal Operations Section of the
   Division is responsible for, among other things, the payment of all invoices, grant-related or
   otherwise. The SOP for that section is currently undergoing revision and will state that prior
   approval or authorization must be provided in written form (usually via email) for those
   purchases originating from a purchase order. Such approval will be supplied from a person




                                            - 18 ­
   who, by providing such approval, is held responsible for ensuring that the Division did indeed
   receive the supply 01' service prior to provision of payment approval. The Oivision suhmits
   that it will add to the Fiscal Administration and Fiscal Operations' SO PS that as one of the
   start-up activities related to a grant, the Fiscal Administration Sectiun will require the Grant
   Project Director to create a list of any Division personnel with authority to authorize payment
   on a grant-related invoice for his/her particular grant. Depending upon the nature of the
   grant and the purchases that will be made, the structure of the personnel who may have
   involvement in the grant activities, or the preferences of the Grant Project Director, that list
   may consist of only the Grant Project Director, or may include a limited number of designees
   who can provide payment authorization in the Grant Project Director's absence, Once
   completed by the Grants Project Director, the Grants Unit will submit the document to the
   Admin istrative Deputy Chief for review and approval. Upon receivi ng it back, the Grants Unit
   will make a copy of the list for its files, and send the original to the Fiscal Manager of the Fiscal
   Operations Section. Fiscal Operations staff will be directed to only process payment on a
   grant-related invoice when payment approval has been given in written form (usually via
   email) by one of the designees on the provided list. Should the Grant Pmject Director later
   wish to modify the list in any way, written notification must be sent to the r iscal
   Administration Section, Grants Unit. The Grants Unit will, then, submit it to the AdminiHrati ve
   Deputy ChieffoI' review and approval. Upon approval, the document will be forwarded to the
   Fiscal Manager of the Fiscal Operations Section with copy to the Grants Unit's files in the Fiscal
   Administration Section.

   I submit that there may be times or circumstances which warrant a person other than the
   Grant Project Director tu authorize payment on a grant-related invoice, especially in order to
   fulfill the payment terms we have agreed to with a vendor or to meet other deadlines.
   However, to further enha nce our internal controls and financial accountability, the
   aforementioned proposed process will be initiated as soon as practicable, and the SOPs
   updated accordingly.

3. Recommendation: Ensure the Columbus PD develops and implements a formal policy
   requiring confirmation a nd documentation of the receipt of grant-funded equipment,
   supplies, and services_ The Columbus Division of Police agrees that confirmation and
   documentation of the receipt of all purchased equipment, supplies, and services, grant-funded
   or otherwise, is important. As such, current practice dictates that any packing slips or delivery
   confirmation that may have heen included in the package or at the time of the delivery be
   forwarded to the Fiscal Operations Section as part of, or with, the authorization for invoice
   payment. Language will be added to the Fiscal Operations Section's SOP memorializing this
   current practice. Because the Divisiun does not control whether or not a packing slip or uther
   documentation sufficient to prove receipt or delivery is included in the shipment, creating a
   written, formal policy requiring it in all cases is impractical. However, in providing payment
   approval tu the Fiscal Operations Section, the designated Division personnel arc affirming
   receipt of lhe equipment and acceptance of the delivery. As for confirming or doc umenting
   that the Division received services that were rendered as part of a grant funded project or any
   other project, again, I submit that in providing written payment approval, Division personnel
   are confirming and documenting that they attest the services were rendered in a manner and




                                              - 19 ­
   to an extent that fulfilled the terms of the contract or purchase order that was established with
   the vendor.

4. Recommendation: Develop a process to ensure property inventories are conducted in
   accordance with Columbus PD policy and ensure assets have asset numbers attached.
   The Columbus Division of Police agrees that proper management of Division assets, includ ing
   accurate inventories and asset numbers is extremely important, and as such, maintains a
   detailed Division Directive (3.66) regarding the annual physical inventory of all Division
   property, with specific instruction for attaching asset numbers to items as appropriate. In
   addition, the Division is required to comply with any legislation adopted by Columbus City
   Council and with guidelines established by the City Auditor in accounting for any Division
   property with an asset number. The Property Control Unit within the Division is responsible
   for the Division's master property inventory records, with the Technical Services Bureau
   responsible for maintaining the inventory records speCifically rel ated to, among other items,
   computer related assets.

   Subsequent to your visit to Columbus in March 2012, Division Directive 3.66, cited in your
   report, was updated to include language instructing that the Division-wide inventory be
   completed not just annually, but before December SU, of each year. This directive was met for
   2012 as required. Establishing an annual date by which this Directive must be done, in my
   opinion, adds an extra layer of accountability to which my personnel will be held.

5. Recommendation: Formalize its polky to ensure property records are maintained with
   all required element.'i to properly account for grant-funded equ ipment. The Division of
   Police agrees with this recommendation. As such, language has been added in the Fiscal
   Admi nistration Section's draft SOP which formally establishes the responsibility of creating
   and maintaining property records/inventories with the Grant Project Director of each
   particular Division grant. Such inventories will be kept in accordance with the specific grant
   guideli nes, and in the absence of such guidelines, will be created and kept in a form acceptable
   to and with guidance from the Division's Grants Unit.

   In addition, all Grant Project Directors were reminded at the June 2012 meetings of their
   responsibility to keep and maintain detailed inventories of grant funded assets, in accordance
   with his/her particular grant's req uirements and with the Division's poliCies. As a pa rt of the
   annual reviews to be conducted by the Grants Unit going forward, grant project inventory lists
   will be reviewed for completeness, and asset numbers will be spot checked for accuracy.

   With regard to the speCific issue of the City's Fleet Division changing vehicle identifiers
   without notification to the Division of Police (which, in tUl"ll, affects the Division's inventory
   records for grant funded equipment located within those vehicles), several steps have already
   been taken. First, the lieutenant assigned to oversee the Division's fleet and related assets has
   initiated a project to create and maintain an inventory of all Division vehicles independent
   from the inventory that the City's Fleet Division holds. Completing and using this
   comprehensive inventory will provide a secondary tier of asset control and a means of
   reconCiling any changes or discrepancies between Pol ice's records and Fleet's. Any change or
   update to the vehicle inventory will be communicated from the fleet lieutenant to the Grant




                                              - 20 ­
   Project Director of this grant, and a ny other Grant Project Director with responsibility for a
   grant involving fleet Second, lhis lieutenant has requested and been granted access to the
   City Fleet Division's asset management database which details and tracks the life of a vehicle
   while in service. This access allows another opportunity for the Division to obtain the
   information it needs to keep the grant-funded eq ui pment inventory up to date. Lastly, the
   lieutenant attends monthly meetings w ith personnel from the City's Fleet Division, at which,
   among uther th ings, updates or changes in vehicle num bering arc discussed and documented.
   Again, any pertinenl information needed by the Grant Project Directors obtained by the flee t
   lieutenant from any of these sources will be immediately and appropriately forwarded.
   Though these three remedies are considered current practice and policy, language will be
   added to the Support Operations Subdivision's SOP to formally document these processes.

6. Recommendation: Develop a formal process to monito r cont ractors. The Division of
   Police agrees w ith this recommendation. As the use of contractors and consultants extends
   heyond the Division's gra nt funded projects, language will be added as soon as practkable to
   both the Fiscal Operations Section and the Fi scal Adm inistration's draft SOPs Formally
   establ ishing the following in regards to the monitoring of contractors:
       a. Contractor/consultant oversight will be lhe responsibility of the Division personnel
           deemed to be in charge of the requested services for his/her technical and/or
           administrative capability to effectively manage the contract.
       b. Contractors/consultants will be selected in accordance with the City's detailed code
           and guidelines related to Ci ty purchasing and procurement, which establishes a chain
           of review and approval across multiple City agencies.
       c. If grant funded, the grant's guidelines will be consulted for contractor service limits or
           thresholds lhat cannot be exceeded without prior written approval from the grantor.
           Obtaining this written approval from the grantor, prior to the execution of a contract, is
           the responsibility of the Grant Project Director, copies of which shall be forwarded to
           the Grants Unit upon receipt.
       d. If henchmarks or progress/status reports are written into the contract as required
           deliverables in order to receive reimbursement or compensation, the Division
           personnel deemed responsible for the contract is, likewi~e, re~ponsible for ensuring
           such mileslones are met prior to authorizing the Fi!)cal Operations section. in writing.
           to make payment to the contractor/consultant.
      e. At the conclusion of the contract, once all deliverables have been met, delivered, and
           accepted. a final invoice will be paid by the Fiscal Operations section upon written
           ap proval fl'Om the responsible personnel.

      Secondly, at the end of November 2012, the Division hired an additional individual in the
      Fiscal Operations section whose primary responsibility is the writing and handli ng of
      Division contracts. This person joins the team with a law degree, and will provide the
      Division an additional layer of contract oversight going forward.

      Lastly, contract monitoring was a topic of di scussion al the June 2012 Grant Project
      Di rector meetings, and will continue to be part of the Grants Unit's ongOing dialogue with
      Grant Project Directors, and more formally at t he aforementioned annual reviews.




                                              - 21 ­
Summary
In conclusion, I want to thank you and your team for your thorough review of our
processes, procedures, records, and reports in relation to the Office of Community Policing
Services Technology Program Grant my agency was awarded. I appreciate the six
recommendations set forth in your December 17, 2012 letter, and will ensure that the
responses to each that I have offered will be implemented.

The funding this grant provided has had, and continues to have, a tangible and positive
effect on the way in which the Division and its officers collaboratively work with the
community and other agencies to successfully prosecute cases, as well as provide an
important and unique means for enhancing training opportunities. The City of Columbus,
Division of Police, remains grateful for the support it has received from the Office of
Community Policing Services, and looks forward to continued and future partnerships.
Should you or your staff be in further need of assistance 01' information, please do not
hes itate to contact me at (614) 645-4600, or Aileen Heisel', Fiscal Administration Section
Fiscal Manager at (614) 645-6107.

Sincerely,

~\(~
Kimberle~I2Jacob(l
City of Columbus, Ohio
Chief of Police

Cc: Office of Community Oriented Policing Services




                                      - 22 ­
APPENDIX III – OFFICE OF COMMUNITY ORIENTED

       POLICING SERVICES RESPONSE



                 u.s. D EI'ART M ENT OF J UST ICE
                 O FfiCE OF C()~H.'lUN I TY ORIENT ED PO LI C I NG SE RVICES
                 Crant Optrations Difl'CCOl"lltc/Auci ir Liaison Division
                                                                                                 COPS
                 145 N Street, N.E., Was hingtOn. DC 211530




                                           MEMORAN DUM


   To:            Carol S. Taraszka
                  Chicago Regiona l Aud it Manager
                  Ornee of the Inspector General

   From:           Melonic V.   Shil1C~
                   Management Analyst

   Date:           January 16, 20 13

   Subject:        Respo nse to the Draft Audit Report lor the City of Columbus, Ohio

   "'his memorandum is in rcspons~ to yOl l1' Decem her 17, 2012 dra ft audit report 0 11 the COPS
   Tech nulogy (iranl #2008CKWX0200. awarded to the City uJ'Cn lu mbus, Ohio (Columbus). For
   ~i.lse of rev iew, each aud it recomlllcndalion is staled ill bold and underlined , followed by a
   response frolll COilS co ncernin g the recommen dat ion.

   Recommelldntion 1 - Ensure thl.lt Columbus PO grant ee officials rcc,ch/c grant nuuulgcment
   training.

           COPS concurs that grantee officials sho ul d rece ive grant Illflnagclllcnt train ing.

    Discussion

             In rcspo nst' to the dnl n aud it report, Co lumbus indil:atcd that all of the Grant Project
   Directors rece ived training in grant administration through a series of meetings that wen: he ld in
   June 2012. In add ition, the Fiscal Ad n~illis tra t ion 's Standard Operating Procedu res are being
   updated to ensure lhat the Gran t Projecl Directors are adequa tely trained Ih!' new grant awa rds
   rece ived uno when there is a tra nsition of respons ibilities for existing grant awards. Col umbus
   wi ll also conduct an ann unl internal grant rev iew process and create a grants toolki t to rurther
   ensure that the grantee oflicials arc properly trained tllf Ihl!ir duties.

    RequC'st

           Uased on the discussioll, COPS     I\~ q u cs ts   closure of I{ecolnmcndntio ll I.




                                                       •
   AD VANC I NG PUB LI C SAFETY THROUG H COMMUN IT Y PO LI C I NG
                   •




                                                 - 23 ­
Carol S. Taraszka
Chicago Regional Audit Manager. OIG
January 16, 20 13
Pagc2


H.ecommcndation 2 - Ens ure that the Col umhus })'I) develoos :tnd irnl)lc~cnts a fOl'mal
policy to ensure that g"aRt-related invoices afC reviewed and apnroved hy the grant nroj ect
manager prior to nayment.

        COPS concurs that grantees shou ld have a policy for reviewing uno approv in g grant­
related invoices prior to payment.

Phmned Action

       COPS will request docu mentation from Columbus to demonstratl! that a formal policy
has been developed and implemen ted to cI1surc that invoices arc reviewed and approved prior to
payment.

Request

       Based 011 the planned action, COPS requests rcsoJ utioll of Recolllmendation 2.

Rccnnuncndntion 3 - Ens ure that the Columbus PD develops unci implemcnts a formal
policv requiring confirmation and documentation of the receipt of grant-funded
equipment. sunnlies. and services.

        COPS concurs that grantees should implcment policics and procedures to con linn and
truck the receipt of grant-funded equipnlcnt, supplies, and services.

1)lanned Action

       COPS will request documentation fro m Columbus to demonstrate that policies and
procedures have been implcmentcd to ensure the proper confirmation and tracking o f granL­
funded cquipll1l!nt , supplics, and services.

Request

       Based on the planned act ion, CO PS requests resolution of Rccol1lllwndation 3.

Rl'commcmJation 4 - Develop n process to ensure property inventuries ~lre conducted in
accordance with Columhus PI) policy and ('"sure Ilssets h:lVC asset numb4lrs ~Iftuchcd .

      COPS concurs tilm grantees shou ld properly record grant-fund ed equipment with    <1$$01
numbers and conduct property inventories.




                                          - 24 ­
Carol S. 'i'al'aszka
Chicago Regional Audit Manager, 010
January 16,2013
Page 3


Planned Action

        COPS will request documentation from Columbus to co nfirm that u process is developed
to ensure that equipment purchased with grant funds is properly recorded with asset numbers and
that inventories are conducted.

Request

         [lased on the planned action, COPS requests resolution of Recommendation 4.

Recommendation 5 - Formalize its policy to ensure property records nrc maint:tillcd with
ull required clements to properly account for grant-Cunded equinment.

       COPS COllcurs that grantees are expected to maintain properly records with all of the
required clemenls to Hccount for grant-funded equipment.

Planned Action

         CO PS willl'cqllcst documentation 10 demonstrate that Columbus developed a formal
policy for maintaining property records wit h all of the required clements.

RotIUC'!

         Based on the plmmcd action, COPS requests resolution of Rccummcndation 5.

I{ccol1uncndation 6 ~ Develop n formal process to monitor contractors.

         COPS concurs thai gnlntccs shuuld have a formal process lor monitoring contmctors,

Phmnctl Action

         COPS will request docume ntation to demonstrate that Co lumb us developed a formal
process for monitoring cOlltmctors.

Request

         Based on the planned Hction, COPS requests reso lution of Recommendation G,

         COPS requests closure of Recommendation I and considers Rccommcndations 2 through
6 resolved , based on the disclIssion nncl planned nct ions shown ahove. In addi ti oll, COPS
rcqu~sts wriltcn acceptance of the determina tion from your onice.




                                           - 25 ­
Carol S. Taraszka
Chic"go Regional AII<iit Manager, OIG
Janllary t6, 20 13
Page 4


        COPS woultllike to thank you (01' the opportunit y to review and respond to tht:: draft
audit rcport. If YOli have any ljuestions, plcase con tac t mc at 202-6 \6-8 124 or via c-mail :
mclonie.shi nC~yllsdoj .gov.


cc:    Louisc M. Duhamel, Ph.D. (cory pfllvided electronically)
       Justice Management Division

       M"ry T. Mye rs (copy provided elec tron icall y)
       Justice Ml.lllugement Di vision

       Marcia O. Sall\ud s-Cm"pbcll (co py provided electronicall y)
       CiHmt OpC!ratiolls Directorate

       Michael Coleman
       City or Columbns

        Kimberl y Jacobs
        City orColllll1bus

        Grant File: Technol ogy 112008CKWX0200

        Audit File


OR I: OHCOI'OO




                                           - 26 ­
    APPENDIX IV - OFFICE OF THE INSPECTOR GENERAL

         ANALYSIS AND SUMMARY OF ACTIONS

           NECESSARY TO CLOSE THE REPORT



       The OIG provided a draft of this audit report to the Columbus PD and
the COPS Office. The Columbus PD’s response is incorporated in Appendix II
of this final report, and the COPS Office’s response is incorporated in
Appendix III of this final report. The following provides the OIG analysis of
the responses and summary of actions necessary to close the report.

Recommendation Number:

  1. Resolved. The COPS Office concurred with our recommendation to
     ensure that Columbus PD grantee officials receive grant management
     training. The Columbus PD response indicated that two members of
     its Grants Unit Staff, as well as their supervisor, the Fiscal Manager of
     the Fiscal Administration Section, completed the DOJ Grants Financial
     Management training course in 2012. Also in its response, the grantee
     stated that all of the Grant Project Directors received training in grant
     administration through a series of meetings. In addition, the grantee
     stated that the Fiscal Administration’s Standard Operating Procedures
     (SOP) are being updated to ensure that the Grant Project Directors are
     adequately trained for new grant awards received and when there is a
     transition of responsibilities for existing grant awards. According to its
     response, the Columbus PD will also conduct an annual internal grant
     review process and create a grants toolkit to further ensure that the
     grantee officials are properly trained for their duties. As a result of
     these actions, in its response, the COPS Office requested closure of
     Recommendation 1.

     This recommendation can be closed when we receive evidence of the
     local training provided to Grant Project Directors, to include meeting
     agendas, dates, and lists of attendees. In addition, please provide
     documentation demonstrating the completion of the online DOJ Grants
     Financial Management training course completed by the Columbus PD
     Grants Unit staff.




                                    - 27 ­
2. Resolved. The COPS Office concurred with our recommendation to
   ensure that the Columbus PD develops and implements a formal policy
   to ensure that grant-related invoices are reviewed and approved by
   the grant project manager prior to payment. The grantee indicated in
   its response that it would enhance its internal controls and financial
   accountability and update its formalized procedures. The COPS Office
   stated in its response that it will request documentation from the
   Columbus PD to demonstrate that a formal policy has been developed
   and implemented to ensure that invoices are reviewed and approved
   prior to payment.

  This recommendation can be closed when we receive evidence that the
  Columbus PD has developed and implemented a policy to ensure that
  grant-related invoices are reviewed and approved by the grant project
  manager prior to payment.

3. Resolved. The COPS Office concurred with our recommendation to
   ensure that the Columbus PD develops and implements a formal policy
   requiring confirmation and documentation of the receipt of grant-
   funded equipment, supplies, and services. The Columbus PD’s
   response indicates that the grantee intends to update its written
   procedures. The COPS Office stated in its response that it will request
   documentation from the Columbus PD to demonstrate that policies and
   procedures have been implemented to ensure the proper confirmation
   and tracking of grant-funded equipment, supplies, and services.

  This recommendation can be closed when we receive evidence that the
  Columbus PD has developed and implemented a policy requiring
  confirmation and documentation of the receipt of grant-funded
  equipment, supplies, and services.

4. Resolved. The COPS Office concurred with our recommendation to
   ensure that the Columbus PD develops a process to ensure property
   inventories are conducted in accordance with Columbus PD policy and
   ensure assets have asset numbers attached. In its response, the
   Columbus PD agreed that proper management of its assets is
   extremely important and that, subsequent to our fieldwork, it updated
   its policies to require that its annual inventory be completed before
   December 5 of each year. The COPS Office stated in its response that
   it will request documentation from the Columbus PD to confirm that a
   process is developed to ensure that equipment purchased with grant
   funds is properly recorded with asset numbers and that inventories are
   conducted.



                                - 28 ­
   This recommendation can be closed when we receive evidence that the
   Columbus PD has developed and implemented a process to ensure that
   equipment purchased with grant funds is properly recorded with asset
   numbers and that inventories are conducted.

5. Resolved. The COPS Office concurred with our recommendation to
   ensure that the Columbus PD formalizes its policy to ensure property
   records are maintained with all required elements to properly account
   for grant-funded equipment. The grantee’s response states that it
   agrees with the recommendation and is taking action to remedy the
   reported deficiency. The COPS Office stated in its response that it will
   request documentation to demonstrate that the Columbus PD
   developed a formal policy for maintaining property records with all of
   the required elements.

   This recommendation can be closed when we receive evidence that the
   Columbus PD has formalized a policy to ensure that property records
   are maintained with all required elements to account for grant-funded
   equipment.

6. Resolved. The COPS Office concurred with our recommendation to
   ensure that the Columbus PD develops a formal process to monitor
   contractors. The grantee agreed with this recommendation and
   indicated that a formal policy will be developed. The COPS Office
   stated in its response that it will request documentation to
   demonstrate that the Columbus PD developed a formal process for
   monitoring contractors.

   This recommendation can be closed when we receive evidence that the
   Columbus PD has developed a formal process to monitor contractors.




                                 - 29 ­
